No. A-

h the
Supreme Court ofthe United States
t
GARY VICTOR DUBIN,

Petitioner,
v
SUPREME COURT OF THE STATE OF HAWAII,
Respondent.

t
PROOF OF SERVICE
a
GARv

Vrcton DusIl.I

Counsel of Eecord
DusrNI Law

Ornlcrs

55 Merchant Street, Suite 3100
Honolulu, Hawaii 96818
Telephone: (aog) 53?'2300
Facsimile: (sos) 523-7733
Cellular: (sog) 392-9191
E'MaiI: gdubin@dubinlaw. net

Petitioner
Member, Supreme Court Bar

PROOF OF SERVICE

I hereby certi$' that true and correct paper copies, including a signed original
and two copies of the aforementioned Application with its Appendix One and
Appendix Two and Declarations and this Proof of Service, were duly sent by Federal
Express today, October 24,2020, to the Clerk of this Court after being electronically

transmitted to the Court through its electronic filing system, and separately mailed
to Respondent's counsel, as follows:
Clare E. Connors, Esq.
Department of the Attorney General
425 Queen Street
Honolulu, Hawaii 96813
Telephone: (gos) 586-1282
Facsimile: (808) 586-1239
E'Mail: clare.e.connors@hawaii.gov

Attorney General for the State of Hawaii
DATED: Honolulu, Hawaiii October 24,2020
/s/ Gary Victor Dubin
GARY VICTOR DUBIN
Counsel of Record

Petitioner

